       OFFICE OF INSPECTOR GENERAL



                                  Catalyst for Improving the Environment


Memorandum Report

        Review of Changes to the
        Atlantic Steel Transportation
        Control Measure
        Report No. 2005-S-00005

        February 16, 2005
Report Contributors:	                       John Bishop
                                            Sarah Turpin
                                            Andrew Lavenburg




Abbreviations

EPA           Environmental Protection Agency
OIG           Office of Inspector General
SIP           State Implementation Plan
TCM           Transportation Control Measure




Cover photo: Signs of the U.S. Department of Transportation. Source:
http://www.dot.ca.gov/hq/TransEnhAct/pics/construction/signs.jpg
                        U.S. Environmental Protection Agency                                             2005-S-00005
                                                                                                      February 16, 2005
                        Office of Inspector General


                        At a Glance

                                                                         Catalyst for Improving the Environment


Why We Did This Review                  Review of Changes to the Atlantic Steel
Our review was prompted by a            Transportation Control Measure
hotline complaint regarding the
Atlantic Steel transportation            What We Found
control measure (TCM) in Atlanta,
Georgia. In response to the             We did not find evidence that the change to zoning condition #4 would have
complainant’s concerns, we sought       a negative effect on the ability of Georgia to attain the National Ambient Air
to determine whether (1) changes        Quality Standards of the current SIP. The revised zoning condition replaces
to selected zoning conditions in the    vague language related to traffic calming (e.g., speed humps) with specific
Atlantic Steel TCM necessitated a       prescribed actions and timetables, and the change does not result in the SIP
State implementation plan (SIP)         being “substantially inadequate” to attain the Standards. The zoning changes
revision; and (2) Environmental         include specific measures to limit cut-through traffic and do not, at this time,
Protection Agency (EPA) Region 4        appear to result in increased air emissions or an undermining of the TCM.
oversight of the Atlantic Steel         Accordingly, we concluded that a revision to the Georgia SIP was not
TCM was adequate.                       required in this instance.
Background                              We found that Region 4's oversight of the changes to zoning condition #4
                                        was generally adequate for the period reviewed. The public was provided
The Atlantic Steel project is a         the opportunity to comment on the proposed changes to zoning condition #4,
brownfields redevelopment effort        and Region 4 officials mediated a compromise agreement to the zoning
that was designated as a TCM in         condition language. However, Region 4 officials acknowledged that the
the Georgia SIP, and is also a          annual public meetings required under Project XL had not occurred in over a
Project XL effort that allows the       year. Region 4 officials committed to starting the annual meeting process
use of innovative strategies to         again in February 2005, and to monitor the City of Atlanta’s progress in
achieve environmental goals. The        ensuring that the terms in zoning condition #4 are met. Also, EPA
complainant contended that the          participates in public meetings held by the Atlanta Regional Commission’s
City of Atlanta changed provisions      Air Quality Interagency Consultation group and the State’s “Green Light
of the TCM’s zoning condition #4        Team” meetings regarding the Atlantic Steel project, but we noted that dates
without submitting a SIP revision       and times are not advertised to sufficiently inform the public as to when the
for EPA approval. Zoning                meetings are held, and that EPA could take further measures to increase the
condition #4 is related to limiting     opportunity for public involvement in the project.
cut-through traffic in existing
residential neighborhoods around
the Atlantic Steel development.          What We Recommend

                                        We recommend that EPA Region 4 use the annual public meetings required
For further information, contact our    by Project XL to monitor any future negative impacts to certain streets as a
Office of Congressional and Public      result of the zoning condition #4 change, post the dates and times of
Liaison at (202) 566-2391.              meetings held by the Atlanta Regional Commission’s Air Quality
                                        Interagency Consultation group and State’s “Green Light Team” on EPA’s
To view the full report, click on the   public web site to increase opportunities for public involvement, and develop
following link:                         a forum on its public web site for the public to post questions and concerns
                                        about the Atlantic Steel project and for EPA to post responses to these
www.epa.gov/oig/reports/2005/20050      concerns. In its response to the draft memorandum report, EPA Region 4
216-2005-S-00005.pdf                    agreed with our conclusions and recommendations.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     W ASHINGT ON, D.C. 20460




                                                                                          OFFICE OF
                                                                                  IN S P E C T O R G E N E R A L



                                        February 16, 2005

MEMORANDUM

SUBJECT:	 Review of Changes to the Atlantic Steel Transportation Control Measure
           Report No. 2005-S-00005

FROM:	         J. Rick Beusse /s/
               Director for Program Evaluation, Air Issues

TO:	         James I. Palmer
              EPA Region 4, Regional Administrator

In July 2004, changes were made to selected aspects of the Atlantic Steel transportation control
measure (TCM) governing the redevelopment of a brownfields site in Atlanta, Georgia.
Subsequent to these changes, a resident of an adjoining community expressed concern over the
implementation of selected aspects of the TCM, prompting our review.

Background

The Atlantic Steel Redevelopment project involves constructing a mixed use development - to
include residences, offices, and other commercial properties - at the site of a former steel mill
that spans 138 acres in the northwest corner of Atlanta’s urbanized core. The project includes a
bridge to cross and provide access to an adjacent highway as well as connect the site to a nearby
mass transit rail station. The project will increase vehicular traffic at the site as well as in
surrounding communities. The Atlantic Steel Redevelopment project is being developed under
the Environmental Protection Agency’s (EPA) “Project XL” program, which allows the use of
innovative strategies to test better or more cost-effective ways of achieving environmental and
public health protection.

Because the City of Atlanta was out of compliance with Federal transportation conformity
requirements when the Project XL agreement was signed in 1999, no Federal funds or approvals
for certain types of transportation projects could be granted to the City. However, under the
Clean Air Act, a transportation project that demonstrates an expected air quality benefit may be
designated as a TCM. This TCM designation allowed the municipality or the Georgia
Department of Transportation greater flexibility in acquiring Federal funds and gaining Federal
approval for projects that would not otherwise have been eligible.



                                                1
The scope of the Atlantic Steel TCM was complex and involved land use, site design, and other
transportation conditions. The TCM was non-traditional in the sense that it included aspects that
could be considered TCMs individually, as well as others that would not have qualified as TCMs
by themselves but contributed to the air quality benefits of the project. EPA considered Atlantic
Steel as a single TCM because of the cumulative effect that the various aspects of the project
would have on emissions reductions and the use of alternative modes of transportation. EPA
approved a State implementation plan (SIP) revision, incorporating the Atlantic Steel TCM, for
the Georgia SIP in August 2000.

The City adopted 27 special zoning conditions for the Atlantic Steel site that go beyond zoning
conditions typically adopted by the City. EPA identified 18 of the 27 zoning conditions that they
believed supported the Atlantic Steel project being classified as a TCM. These 18 conditions are
identified in the April 10, 2000, proposed rule to approve Georgia’s revised SIP to include the
Atlantic Steel TCM. In July 2004, the City of Atlanta approved changes to 1 of the 18 conditions
– zoning condition #4, which is related to limiting cut-through traffic in existing residential
neighborhoods around the Atlantic Steel development through the use of traffic calming devices
(e.g., speed humps). Additional information on the original and changed zoning condition #4 are
in Appendix 1.

Summary of Complainant Concerns

In May 2004 the Office of Inspector General received a hotline complaint regarding the proposed
changes to zoning condition #4. The complainant, who resides in the Home Park community
adjacent to the Atlantic Steel site, contended that the zoning conditions identified in the TCM
were part of the August 2000 approved Georgia SIP and any subsequent changes to these
conditions required a SIP revision. He also expressed concern about the zoning condition being
modified without appropriate consideration of the community’s position. According to the
complainant, the implementation of zoning condition #4, or lack thereof, has been an ongoing
concern for some members of the Home Park community.1

In June 2004, EPA Region 4 held a mediation session between representatives of the Atlantic
Steel developer, the City of Atlanta, and neighborhood representatives to discuss revisions to
zoning condition #4 and specific traffic calming measures desired by some neighborhood
residents. The participants discussed, among other measures, the threshold for the volume of
cars per day that would trigger the developer to install a traffic triangle, and narrowing the width
of State Street (a street in the Home Park neighborhood). Language incorporating these measures
into zoning condition #4 was agreed to in the mediation session by all parties and was
subsequently approved by the Atlanta City Council and the Mayor in July 2004.



         1
          Mem bers of the Home Park co mmunity filed suit against the City of Atlanta for not properly implementing
zoning conditions #4 and #23 of the Atlantic Steel TCM. The Superior Court of Fulton County, State of Georgia,
grante d Su mm ary Jud gme nt to the P laintiffs on M ay 20 , 200 3, ord ering the City to im plem ent zo ning co ndition #4 in
a ma nner c onsisten t with its intent.



                                                               2
Despite the agreement reached in mediation, the complainant continued to express concern over
whether EPA followed proper procedure by not requiring a SIP revision to make changes to
zoning condition #4. The complainant also expressed concern over Region 4's oversight effort
with regard to the implementation of zoning condition #4 and future community issues arising
from the Atlantic Steel Project XL development. In response to the complainant’s concerns, we
agreed to determine whether:

•	 Changes to selected zoning conditions in the Atlantic Steel TCM necessitated a SIP revision.

•	 Region 4's oversight to date of the Atlantic Steel TCM implementation was adequate,
   particularly with regard to zoning condition #4.

The scope and methodology for our review are discussed in Appendix 2.

Results of Office of Inspector General Review
Changes to zoning condition #4 did not necessitate a SIP revision

The Clean Air Act requires a revision to a SIP when there has been a change in the National
Ambient Air Quality Standards, any improved methods of attainment, or any finding by EPA that
the plan is "substantially inadequate" to attain the Standards.2 If the Administrator finds that a
State’s SIP is “substantially inadequate” to attain or maintain the standards or to adequately
mitigate interstate pollutant transport, then the Administrator is authorized to “require the state to
revise the plan as necessary to correct such inadequacies” within 18 months.3 This procedure is
called a “SIP call.” Whether a SIP revision was necessary when Atlanta modified the zoning
measures depends on whether the changes resulted in the SIP being “substantially inadequate.”
The SIP must also be revised if a specific TCM in an approved SIP is changed or substituted.
However, according to a key official from EPA’s Office of Transportation and Air Quality, EPA
is allowed discretion in determining what constitutes a significant change to a TCM.

We did not find evidence that the change to zoning condition #4 would have a negative effect on
the ability of Georgia to attain the National Ambient Air Quality Standards of the current SIP.
The revised zoning condition replaces vague traffic calming language with specific prescribed
actions and timetables. The emissions reduction benefits of zoning condition #4 on its own
appear to be minor, both in its original form and as currently written. The zoning changes
include specific measures to limit cut-through traffic and do not, at this time, appear to result in
increased emissions or an undermining of the TCM. Region 4 asserts the revision does not result
in any change in emissions and will in all likelihood enhance the ability to reduce emissions.
Accordingly, because there is no basis to conclude that the “substantial inadequacy” test has been
met, we concluded that a revision to the Georgia SIP was not required in this instance.


       2
           42 U.S.C § 7410(a)(2)(H)

       3
           42 U.S.C.§7410(k)(5)



                                                  3
EPA Region 4 officials noted that the language in the revised zoning condition #4 is actually
more strict than the previous version of the condition. According to Region 4 officials, the
original zoning condition contained vague language that required the developer to work with the
City and the Home Park neighborhood to limit cut-through traffic by means of traffic calming
devices. The revised language contains detailed measures and timeframes to reduce cut-through
traffic to State Street (see Appendix 1 for full text of the original and revised zoning language).
Key provisions in the revised language call for the developer to:

•	   Install a median and signs prohibiting left turns onto State Street.
•	   Install sidewalks and narrow State Street to a width of 32 feet.
•	   Install four speed humps if requested by residents and approved by the City of Atlanta.
•	   Commission a traffic survey within 2 months of opening State Street and annually thereafter.
•	   Install a traffic triangle if the survey shows traffic exceeds a threshold volume of 3,700
     average annual daily traffic, or a peak period threshold of 1,000 vehicles per hour.

While the change to zoning condition #4 was more prescriptive than the original language, it
shifted the focus from the entire Home Park neighborhood to one street - State Street.4 Region 4
said that State Street is the largest street in the area and that it is the most logical place for traffic
to cut through. A key Region 4 official told us that State Street was therefore in need of more
traffic calming. Region officials contended that the new zoning condition #4 language would
have very little, if any, impact on the streets surrounding State Street, largely because cut-through
traffic on these was limited by a solid median on 16th Street. Nonetheless, the project’s Finding
of No Significant Impact provides a mechanism for addressing traffic problems in the event that
future problems arise. The Finding of No Significant Impact states that if cut-through traffic
attributed to Atlantic Steel is determined to be excessive in Home Park or surrounding areas,
appropriate Atlantic Steel Brownfield Area and Tax Allocation District Number Two funds
would be utilized to study and implement measures to limit cut-through traffic.

The EPA Office of Transportation and Air Quality official told us that TCMs are not generally
associated with large emissions reductions, but they can be very useful in helping to mitigate
localized air quality problems (e.g., carbon monoxide hotspots). EPA performed a carbon
monoxide hotspot analysis to determine the air quality impacts on surrounding neighborhoods
generated by the Atlantic Steel redevelopment project. EPA concluded that the project and
associated roadway improvements would be extremely unlikely to create a localized violation of
the National Ambient Air Quality Standards for carbon monoxide in the foreseeable future.
Additionally, Region 4 officials told us that there are no emissions reduction credits associated
with the Atlantic Steel TCM. Region 4 officials said that zoning condition #4 was not relied
upon by EPA in its emissions analysis to determine whether the TCM would reduce air pollution
factors such as vehicle miles traveled and nitrogen oxide emissions. Instead, zoning condition #4
was a measure designed to minimize traffic impacts to the surrounding neighborhoods.



          4
           Th e revise d zo ning co ndition still retains gen eral languag e from the orig inal relate d to a ddr essing tra ffic in
the Lo ring H eights co mm unity.



                                                                 4
EPA Region 4 oversight of changes to zoning condition #4 generally adequate,
but promised improvements would better ensure concerns resolved expeditiously

EPA Region 4 has oversight authority under Project XL and shares oversight authority on the
Atlantic Steel TCM with the State of Georgia. Annual monitoring is a regulatory requirement of
the SIP and is required to ensure that the project is meeting the performance targets included in
the TCM. Also, the Project XL final project agreement includes a requirement that the developer
submit to EPA an annual report providing a summary of environmental performance data and
describing progress toward completing the project. The final project agreement also includes
provisions for an annual public meeting to be held in February of each year.

Region 4 officials told us that EPA monitors actions associated with the TCM in the following
forums:

•	 EPA participates in monthly meetings of the Atlanta Regional Commission’s Air Quality
   Interagency Consultation group to discuss air quality conformity issues, including status of
   TCMs, for the Atlanta metropolitan area. The City of Atlanta, Georgia Department of
   Transportation, and the Atlantic Steel developer also participate in these meetings and are
   required to file annual monitoring reports to the Interagency Consultation group.

•	 EPA participates in bimonthly meetings of the “Green Light Team,” a special committee
   established by the Governor of Georgia to coordinate activities and monitor development of
   the Atlantic Steel project, including related transportation components. The City of Atlanta
   and the developer regularly participate in these meetings.

The Interagency Consultation group and Green Light Team meetings are open to the public.
However, according to a Region 4 official, the meeting dates and times are not advertised, so the
public rarely attends.

In addition to the above, Region 4 officials conducted specific oversight activities related to
zoning condition #4. Officials told us that EPA plays an active, informal role in monitoring
changes to ensure that they do not violate the spirit of the TCM or impact future performance
measures. Region 4 officials said they maintained communications with the key stakeholder
parties throughout the process of changing zoning condition #4. They told us they worked
informally with the City to incorporate traffic calming provisions into the revised zoning
condition, such as eliminating left-hand turns from 16th Street onto State Street. Region 4 sent
letters to both the City of Atlanta and the complainant outlining what they perceived to be the
proper procedure for modifying Atlantic Steel zoning conditions. As discussed above, in June
2004, Region 4 held a mediation session with the developer and representatives from the affected
neighborhood community groups resulting in a compromise agreement on the language of the
zoning condition.

Overall, we concluded that Region 4's oversight of the changes to zoning condition #4 was
generally adequate for the period reviewed. The public was provided the opportunity to



                                                5
comment on the proposed changes to zoning condition #4, and Region 4 officials mediated a
compromise agreement to the zoning condition language. However, Region 4 officials
acknowledged that the annual public meetings required under Project XL had not occurred in
over a year. An official told us that this was due to the fact that the Innovations Coordinator
position had been vacant. Region 4 officials committed to starting the annual meeting process
again in February 2005, and indicated they would provide enough pre-meeting notice so the
community members could contribute to the overall agenda of the meeting.

The complainant had expressed a desire for more frequent public meetings, suggesting that they
occur twice a year. However, if EPA Region 4 ensures that the monthly Interagency
Consultation group and the bimonthly Green Light Team meeting dates are advertised, this
should provide the public with a greater opportunity to attend and voice any concerns. Region 4
officials also pointed out that a public comment web page would be a forum for EPA to review
and respond to the public’s concerns.

Region 4 officials told us that although there are lines of communication between Region 4 and
the City of Atlanta, they sometimes found it difficult to get updates on all changes affecting the
Atlantic Steel TCM. Region 4 officials said they would monitor the City of Atlanta’s progress in
ensuring the completion of the terms in zoning condition #4. As of January 11, 2005 the
developer had not yet submitted a permit application, to the City of Atlanta, for the construction
of provisions outlined in zoning condition #4.5 However, State Street had been closed to traffic
and the developer had been working with the community to create a proposed permit application
that would be agreeable to local residents.

Conclusions

While the TCM zoning conditions are a part of the SIP, the change to zoning condition #4 did
not necessitate a SIP revision. We found that Region 4's oversight of the zoning condition
change was generally adequate. However, the lack of an annual public meeting in over a year, a
key responsibility of the Project XL final project agreement, may have deprived the public of a
forum for expressing their concerns over the Atlantic Steel project. The Region has committed
to taking specific additional steps related to zoning condition #4. Advertising the dates and times
of the monthly and bi-monthly Interagency Consultation group and Green Light Team meetings,
respectively, which are open to the public, and developing a web site forum for posting questions
and concerns and EPA’s responses should increase opportunity for public involvement on the
project. Region 4 should maintain regular contact with the City of Atlanta and the residential
communities surrounding the Atlantic Steel redevelopment project to monitor future traffic and
air quality impacts.




        5
         In their response to our draft memorandum report, EPA Region 4 officials noted that the developer
submitted the permit application to the City of Atlanta on January 24, 2005.



                                                        6
Recommendations

We recommend that the EPA Region 4 Regional Administrator:

1. 	 Use the annual public meetings required by Project XL to monitor any future negative
     impacts to State Street and surrounding streets as a result of the zoning condition #4 change.

2. 	 Post the dates, times, and agendas (if available) of the Green Light Team and Atlanta
     Regional Commission’s Air Quality Interagency Consultation group meetings on its public
     web site, or other appropriate web sites, to increase opportunities for public involvement.

3.	 Develop a forum on or linked to, as appropriate, its public web site for the public to post
    questions and concerns about the Atlantic Steel project and for EPA to post responses to
    these concerns.

Region 4 Response

EPA Region 4 provided comments to our draft memorandum report, and, where appropriate, we
made revisions. The Region agreed with all major conclusions and recommendations in the
memorandum report. See Appendix 3 for the full text of the Region’s response.

Action Required

In accordance with EPA Manual 2750, as the action official, you are required to provide this
office with a written response within 90 days of the final report date. The response should
address all recommendations. For the corrective actions planned but not completed by the
response date, please describe the actions that are ongoing and provide a timetable for
completion. We appreciate the efforts of EPA officials and staff, as well as external
stakeholders, in working with us to develop this memorandum report. For your convenience, this
report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (919) 541-5747
or John Bishop, Assignment Manager, at (919) 541-1028.




                                                 7
                                                                                      Appendix 1

       Additional Information on Zoning Condition #4

Original zoning condition #4 as passed by the City of the Atlanta (April 1998):

The developer will work with the City and Home Park to limit cut-through traffic on residential
streets perpendicular to and south of 16th Street by means of cul-de-sacs, speed humps, gates,
control arms, and other traffic calming devices. The developer will work with the City and
Loring Heights neighborhood to limit cut-through traffic on Bishop Street.

Original zoning condition #4 as described in the April 2000 Federal Register notice proposing
approval of the TCM inclusion in the Georgia SIP:

The developer will work with the City and neighborhood groups to limit cut-through traffic in
designated areas by use of cul-de-sacs and traffic calming devices. This condition will promote
pedestrian activity.

Revised zoning condition #4 as approved by the Atlanta City Council (July 2004)

The developer will install medians on 16th Street at its intersections with Francis, Holly, Barnes
and Atlantic Streets. The developer will replace the existing westbound left turn lane at the 16th
Street/State Street intersection with a median and install signs prohibiting southbound left turns
from 16th Street onto State Street, and will remove the existing traffic island at 16th and State
Streets in order to reduce southbound right turns from eastbound 16th Street onto State Street.
The configurations and width dimensions of the medians at the 16th Street/State Street
intersection, the location of signage and the elimination of the traffic island at the southwest
corner of the intersection are indicated on Exhibit 1, attached hereto and by this reference made a
part hereof. On State Street, the developer will install sidewalks within the existing City right-
of-way on each side of the street between 16th and 14th Streets, including a grass buffer at the
curb, not to exceed 3 feet wide including the curb, and a sidewalk five feet in width on the east
side of the street, and six feet on the west side of the street. The developer will narrow State
Street between 16th and 14th Streets to a width of 32 feet, curb to curb. If requested by the
residents of State Street and approved by the City, the developer will pay for the installation of
four speed humps on State Street between 16th and 14th Streets. In determining whether the
requisite percentage of homeowners of State Street between 16th and 14th Streets desires the
installation of speed humps, if Atlantic Station is the owner of properties on State Street at the
time of petition, Atlantic Station will sign on behalf of such properties with the majority of other
homeowners. Within two months after the opening of the streets and annually thereafter, the
developer shall hire a recognized traffic engineering firm to conduct a traffic survey of State
Street, monitoring a 24-hour normal weekday period, taken on a non-holiday workday between
Monday and Friday, inclusive. This survey shall be undertaken at the expense of the developer.
The developer will provide the results of each such traffic survey to the Home Park Community


                                                 8
Improvement Association and the City within ten days of completion for review, and will at the
same time make the results available to the Home Park neighborhood and to the general public.
In the event the results of any such survey show that traffic exceeds a reasonable threshold on
State Street, then the developer or its successor shall install a traffic triangle or island on the
south leg of the State Street/16th Street intersection to create a right-in only turn onto State Street
from 16th Street, and a right-out only turn onto 16th Street eastbound, from State Street. A
“reasonable threshold” is defined for the purposes of this condition as a volume of 3,700 AADT
(average annual daily traffic) or a peak period threshold of 1,000 vehicles per hour. In the event
a majority of residents on State Street living between 16th and 14th Streets requests in writing that
the City conduct a traffic volume survey at any other time (between the studies conducted as
provided above), the developer will not oppose such additional survey but will not be responsible
for the cost thereof. The developer will submit plans to the City for all improvements within 60
days after approval of this condition by the Atlanta City Council and will complete such
improvements within 90 days after issuance of all necessary permits by the City. The traffic
triangle/island will be installed on a similar schedule if and when it is warranted as provided
above. The developer will also work with the City of Atlanta and the Loring Heights community
to address traffic issues caused by the Atlantic Station development affecting that neighborhood.




                                                  9
                                                                                   Appendix 2

                          Scope and Methodology

To determine whether the change to zoning condition #4 necessitated a SIP revision, we
interviewed EPA Region 4 and EPA Office of Transportation and Air Quality officials. We
reviewed EPA requirements for SIP and TCM revisions and analyzed the changes to the zoning
conditions to determine whether they appeared to increase emissions or undermine the TCM.
We also reviewed background material on the Atlantic Steel redevelopment project, including
the:

•      Final project agreement
•      Finding of No Significant Impact
•      TCM
•      Texts of the original and revised zoning condition #4
•      Written communication between Region 4, the City of Atlanta, and community groups

To determine whether Region 4's oversight of the zoning condition change was adequate, we
interviewed Region 4 officials regarding their involvement in the revision process. We also
reviewed the requirements for EPA oversight under the TCM and the Atlantic Steel Project XL
agreement.

We interviewed the complainant to further discuss issues provided to us and to confirm selected
information provided by EPA Region 4 officials. This was a limited-scope review designed to
meet the objectives as agreed with the complainant.

We conducted our review between June 2004 and November 2004 in accordance with the
Government Auditing Standards, issued by the Comptroller General of the United States, except
as noted above.




                                               10
                                                                                      Appendix 3

            EPA Response to the Draft Memorandum


MEMORANDUM

SUBJECT:	              EPA Region 4 Review of Draft OIG Report, “Review of Changes to the
                        Atlantic Steel Transportation Control Measure” (OIG Assignment
                        Number 2004-001106)

FROM:	                  J. I. Palmer, Jr.
                        Regional Administrator

TO:	                    J. Rick Beusse
                        Director for Program Evaluation, Air Issues
                        Office of Inspector General
                        Research Triangle Park
                        Mail Code N283-01


        EPA Region 4 has conducted a review of the subject draft report and concurs with all
major conclusions and recommendations as outlined in the report. We will develop a strategy to
implement all three recommendations as identified on page 7 of the report. It is our intention to
present our strategy for additional public notice and outreach to project stakeholders at the next
Project XL annual meeting, currently scheduled for the 1st Quarter CY 2005. In addition, we
offer the following specific comments for your consideration as you finalize the report:

Background

•	     Page 1, 1st paragraph, 3rd sentence: Change, “The bridge may increase...” to “The project
       will increase...” The overall project, not just the bridge itself, will cause an increase in
       vehicular traffic.

•	     Page 1, 2nd paragraph, 1st sentence: Insert “in 1999” after “transportation conformity
       requirements,...” For this section, it is important to have the correct time context.

•	     Page 2, 2nd paragraph, 3rd sentence: Change sentence to read, “These 18 conditions are
       identified in the April 10, 2000, proposed rule to approve Georgia’s revised SIP to
       include the Atlantic Steel TCM.” This improves the wording of this sentence.




                                                11
EPA Region 4 oversight of changes to zoning conditions...

•	     Page 5, 1st paragraph, 1st sentence: Change sentence to read, “EPA Region 4 has
       oversight authority under Project XL and shares oversight authority on the Atlantic Steel
       TCM with the State of Georgia.” The sentence was unclear related to who has oversight
       authority. For example, the State of Georgia has no oversight authority under Project XL.
•	     Page 6, 3rd paragraph, 3rd sentence: Change “As of January 2005,...” to “As of December
       2004,...” The developer submitted a permit application on Monday, January 24, 2005, to
       the City of Atlanta for construction of zoning condition #4 provisions.

       If you have questions or need additional information, please contact me or the Region 4
Office of Inspector General liaison, Ms. Dorothy Dimsdale, at (404) 562-8398.




                                               12
                                                                               Appendix 4

                                 Distribution List

EPA Region 4

      Air, Pesticides, and Toxics Management Division

      Audit Followup Coordinator

      Office of External Affairs


Headquarters Office

      Office of the Administrator (1101A)

      Assistant Administrator for Air and Radiation (6101A)

      Agency Followup Official (the CFO) (2710A)

      Agency Followup Coordinator (2724A)

      Associate Administrator for Congressional and Intergovernmental Relations (1301A)

      Associate Administrator for Public Affairs (1101A)


Office of Inspector General

      Inspector General (2410)




                                            13
